CERTIFICATE OF COMPLIANCE
No. MATTHEW WILLIAM GEORGE,
Petitioner
v.
COMMONWEALTH OF VIRGINIA
Respondent
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 8,937 words, excluding the parts of the
petition that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 6, 2020
/s/Dale R. Jensen
Dale R. Jensen
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

